<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]










            COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES 
                            APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                                  _______

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama         DEREK KILMER, Washington    
  JOHN R. CARTER, Texas               MATT CARTWRIGHT, Pennsylvania        
  MARTHA ROBY, Alabama                GRACE MENG, New York      
  STEVEN M. PALAZZO, Mississippi
  EVAN H. JENKINS, West Virginia
 

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                                 _________

                                  PART 7

  Members' Day....................................................    1
  Statements of interested individuals and 
     organizations................................................  115

                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 _________
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
                       
26-140                         WASHINGTON : 2017

                       
                       
                       
 
 
 
 


                      COMMITTEE ON APPROPRIATIONS

                                ----------    
                                
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\             NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                      PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho               JOSE E. SERRANO, New York           
  JOHN ABNEY CULBERSON, Texas             ROSA L. DeLAURO, Connecticut                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          
  JOHN R. CARTER, Texas                   DAVID E. PRICE, North Carolina  
  KEN CALVERT, California                 LUCILLE ROYBAL-ALLARD, California        
  TOM COLE, Oklahoma                      SANFORD D. BISHOP, Jr., Georgia  
  MARIO DIAZ-BALART, Florida              BARBARA LEE, California  
  CHARLES W. DENT, Pennsylvania           BETTY McCOLLUM, Minnesota          
  TOM GRAVES, Georgia                     TIM RYAN, Ohio
  KEVIN YODER, Kansas                     C.A. DUTCH RUPPERSBERGER, Maryland   
  STEVE WOMACK, Arkansas                  DEBBIE WASSERMAN SCHULTZ, Florida   
  JEFF FORTENBERRY, Nebraska              HENRY CUELLAR, Texas       
  THOMAS J. ROONEY, Florida               CHELLIE PINGREE, Maine       
  CHARLES J. FLEISCHMANN, Tennessee       MIKE QUIGLEY, Illinois                    
  JAIME HERRERA BEUTLER, Washington       DEREK KILMER, Washington                 
  DAVID P. JOYCE, Ohio                    MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California            GRACE MENG, New York         
  ANDY HARRIS, Maryland                   MARK POCAN, Wisconsin         
  MARTHA ROBY, Alabama                    KATHERINE M. CLARK, Massachusetts        
  MARK E. AMODEI, Nevada                  PETE AGUILAR, California                     
  CHRIS STEWART, Utah                              
  DAVID YOUNG, Iowa                                         
  EVAN H. JENKINS, West Virginia                              
  STEVEN M. PALAZZO, Mississippi                                
  DAN NEWHOUSE, Washington                                      
  JOHN R. MOOLENAAR, Michigan                              
  SCOTT TAYLOR, Virginia                    
  ----------
  \1\ Chairman Emeritus

                   Nancy Fox, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2018

                              ----------                              

                                        Tuesday, February 28, 2017.

                              MEMBERS' DAY

    Mr. Culberson. Good morning. The Commerce, Justice, and 
Science Appropriations Subcommittee will come to order. This is 
our first hearing and it is especially appropriate that we 
would start out with a Members' day to hear from our colleagues 
on their top priorities, projects and issues that they are 
working on that are important to them and their districts.
    It is a particular privilege for me to Chair this 
Subcommittee. It is one that I have always loved to serve on. 
The issues that we cover, from helping Federal law enforcement, 
to economic growth in this nation through the Department of 
Commerce, and ensuring that the American space program is the 
best on Earth, and that we fund and support cutting edge 
scientific research are all issues near and dear to my heart, 
and they are to each and every one of you. I know this 
Subcommittee also has a long tradition of working together arm-
in-arm on behalf of the country. And regardless of party we all 
are focused on ensuring that we get our bill done in a 
bipartisan way in support of our men and women in uniform and 
law enforcement, combating crime and terrorism, and promoting 
trade, forecasting the weather, and investing in basic 
research, and exploring space. It is a goal we all share and it 
is a privilege for me to work with each and every one of you on 
this.
    For our hearing today, we have each member who is coming in 
and testifying has about five minutes. And I will do my best to 
stay, we will do our best to stay on the clock. I appreciate 
you being here spot on, Mr. Posey. And we will make sure to 
listen carefully to everyone's concerns, do our best to 
accommodate you in every way that we can, and working together 
I am confident we will make great progress.
    I am especially pleased to have my good friend Jose Serrano 
back as the Ranking Member. We have worked together for many 
years on this Subcommittee and done a lot of great things for 
the country, and had a lot of fun. The important part is the 
fun. We get along great and are good friends. So glad to be 
working here with you, Mr. Serrano.
    Mr. Serrano. Thank you.
    Mr. Culberson. And it is a privilege for me to recognize 
you.
    Mr. Serrano. Well, I look forward, first of all let me 
apologize for being late five minutes. It is one of those 
interesting modern stories. I was in the building at ten 
o'clock, ready to come in here at ten o'clock. Then I reached 
in my left pocket and realized my cell phone was not with me. 
So I had to backtrack my whole morning to find my cell phone. 
So much for the lack of importance of a cell phone. Otherwise I 
would have had to go hit find my phone, and that would have 
been----
    Mr. Culberson. Yes. Right.
    Mr. Serrano. But I found it. It was next to your locker. 
Anyway. I am looking forward to working with you, Mr. Chairman. 
I know you and I are not naive. We know that we have, there are 
party differences. These are difficult times. But this 
Committee is very important to me. So much so, that I gave up 
the ranking membership on Financial Services in order to be 
Ranking Member over here. Because I have always said that this 
Committee traditionally does not hurt anyone. On the contrary, 
it helps people. It helps our law enforcement people. It 
explores space. It takes our space program and brings them into 
the schools to teach kids about math and science and so on. It 
does a lot of other things. It has got the Justice Department, 
the Census Bureau, which we may have differences on, but it is, 
you know, a constitutional mandate. So I look forward to 
working with you.
    And at the minimum, Mr. Chairman, what I am looking forward 
to is that our friendship remains. And even during these 
difficult times, and they probably will be very difficult, if 
we do not agree, we do not have to be disagreeable.
    Mr. Culberson. Absolutely.
    Mr. Serrano. We can be, still be friends and realize in a 
democracy you disagree. You know, I will close with this. I may 
be the only person who defends gridlock. And I say it this way, 
in China the budget is always on time. In a democracy, there 
are disagreements. Some people want the budget on the day it is 
supposed to be. It does not work that way. He gets elected. He 
gets elected. You get elected to represent our community and 
our thoughts, and sometimes those things clash. But that is 
what makes this country the one where people are still knocking 
on this door to come in everyday.
    Mr. Culberson. Absolutely.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Culberson. Okay. Thank you. Thank you very much. Well 
Mr. Posey, we are delighted to have you with us here this 
morning. Let me make sure, does anybody else have any opening 
comments? Ready to roll, Bill. We appreciate you being here 
today. Your written statement, of course, will appear in the 
record and I am pleased to recognize you for five minutes.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Posey. Thank you, Mr. Chairman, and Mr. Ranking Member, 
and Members of the Committee. I appreciate the opportunity to 
come before you today as you consider funding priorities for 
fiscal year 2018. I ask for your continued support of our 
nation's space programs, particularly our exploration programs, 
and including the Space Launch System, the Orion spacecraft, 
and exploration ground systems.
    American dominance in space is no longer a given, as all of 
you know. I see your heads going like that, the two of you. 
Rival powers such as Russia and China continue to develop their 
space capabilities. Ceding our dominance in space, the ultimate 
military high ground, to any other nation is unacceptable on 
both national security and military readiness grounds.
    As we look beyond to the future of American leadership in 
space, we are reminded of the words of our recently departed 
friend and colleague, Senator John Glenn, the first American to 
orbit the Earth, when he said, ``the most important thing we 
can do is inspire young minds and to advance the kind of 
science, math, and technology education that will take us to 
the next phase of space travel.'' With that in mind a refocused 
NASA with sights set high on a mission to Mars and with an aim 
towards establishing a lasting American presence on the Moon, 
can invigorate and inspire the entire nation, including the 
next generation of science, technology, engineering, and math 
leaders.
    Since the retirement of the shuttle, the U.S. commercial 
space companies have successfully transported cargo to the 
International Space Station and with sufficient support 
American commercial crew companies will launch American 
astronauts from America by 2019. Let us resolve to keep this on 
track and break our dependence on the Russians at a cost of 
over $80 million per seat.
    The Space Launch System, the most powerful rocket ever 
built, is a critical component in maintaining our nation beyond 
the Moon and on the mission to Mars. Thousands of skilled 
workers from hundreds of companies in nearly every State across 
the country are building the hardware and technology for this 
system. In order to prevent delays to Exploration-Mission 2, 
the first crewed mission of SLS and Orion set for 2021, the SLS 
requires a fiscal year 2018 appropriation of $2 billion.
    With its successful first flight in December of 2014, 
Orion, humanity's first interplanetary spaceship, is on track 
for a mission in 2019 aboard the SLS rocket. The Orion 
spacecraft is the key to a manned mission to Mars and beyond 
and is the only spacecraft capable of taking humans to multiple 
destinations in deep space and returning them safely back to 
Earth. Fully developed, Orion will be able to support missions 
to the Moon, Mars, and everywhere in between. In fiscal year 
2018, welding is scheduled to begin on the EM2 crew module, as 
well as completion of the design crew systems for the first 
crewed flight. We need an appropriation in fiscal year 2018 of 
$1.35 billion to see that actually happen.
    Along with the manned and unmanned spacecraft, ground 
systems are an indispensable part of the infrastructure of 
space exploration. Much of the existing ground systems at 
Florida's Kennedy Space Center date back to the 1960s Apollo 
era. The material we use for tracking rockets from the Kennedy 
Space Center still has some vacuum tubes. Half the people in 
this room do not know what vacuum tubes are, not because it is 
a lack of knowledge it is just before they were born. And that 
is the technology we are still using for telemetry in some 
cases at the Space Center, and we must upgrade that telemetry. 
Kennedy is hard at work finishing preparation for Launch 
Complex 39B, the former shuttle pad, where SLS will launch. The 
ground systems team is on schedule having completed 80 percent 
of the structural changes. A fiscal year appropriation of $635 
million is needed to keep these activities on track. 
Modernizing the ground based infrastructure is a key to 
continued U.S. dominance in space. As I have been very 
frequently known to say, no ground systems mean no launches.
    For over 50 years the United States' leadership in space 
has benefitted our economy's national security, our economy, 
strengthened our international relationships, advanced 
scientific discovery, and improved life here on Earth in many, 
many ways. I ask for your continued support of our nation's 
space programs as the Committee crafts the fiscal year 2018 
Commerce, Justice, and Science Appropriations Bill. Thank you 
for the opportunity to appear before you today. Thank you.
    [The information follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Culberson. Thank you, Mr. Posey. NASA is one of those 
areas where all of us are in agreement in the Congress on how 
important they are. And we will look forward to working with 
you on this. Any questions?
    Mr. Serrano. No, we are in agreement. It is not only in 
terms of space travel, in terms of space program, but I always 
keep looking at the schools.
    Mr. Posey. Yes.
    Mr. Serrano. And there is a lot that our children can learn 
from the space program. That is one of the things, I always 
keep pushing NASA to get more involved in our schools.
    Mr. Posey. Thank you. Thank you. Thank you for your kind 
comments.
    Mr. Culberson. Thank you very much. I am pleased to 
recognize Representative John Faso of New York's 19th District. 
We are glad to have you here with us this morning.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. JOHN J. FASO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Faso. Thank you, Mr. Chairman. The last time I was at a 
committee meeting with the Ranking Member Mr. Serrano, he was 
the chairman in the Education Committee at the State Assembly 
in New York and I was just a lowly young minority member in 
that committee. So I, it is a pleasure and a privilege to see 
Mr. Serrano.
    Mr. Serrano. I am excited to see you.
    Mr. Faso. There are other factors involved with that, Mr. 
Serrano. Mr. Chairman, Members of the Committee, I just wanted 
to call your attention to the Economic Development 
Administration and ask your consideration for appropriations 
legislation. The EDA is the only Federal agency charged 
entirely with economic development. The grant programs that 
they employ are intended to secure long term economic growth by 
leveraging regional assets. EDA was appropriated at $261 
million in fiscal year 2016.
    The issue to me is U.S. manufacturing. We have clearly a 
skills gap in our country. The manufacturing sector is expected 
to outperform the U.S. economy, growing by three to four 
percent compared to just two to three percent in the U.S. 
economy as a whole. But according to the Manufacturing 
Institute this economic growth will lead to the creation of 3.5 
million new manufacturing positions over the next ten years, 
but nearly two million of these positions will remain unfilled. 
The thing I heard from manufacturers and businesses in my 
district over this past year and a half was that they had jobs, 
they just could not find the right people to fill those jobs.
    We have a real skills gap. Hudson Valley Community College, 
located in my area and actually located specifically in Mr. 
Tonko's district immediately adjacent to me but it serves both 
of our communities. They are committed to closing the 
manufacturing skills gap by training dozens of highly skilled 
advanced manufacturing technicians every year. Currently they 
have a program that trains 144 students a year. They are 
looking to try to expand that to 228 students, almost twice 
their current enrollment. Virtually every single one of these 
students in this two-year program has a job before they leave 
the program.
    When I toured the Hudson Valley recently they told me that 
we could build 50 to 75 of these type centers around the 
country and every single one of the people that graduates as an 
advanced manufacturing skilled technician would find a job in 
our economy. They quickly advance in their fields. They often 
earn $18 to $25 to start. And by expanding its advanced 
manufacturing program Hudson Valley estimates that it will 
place over 1,200 skilled technicians into the workforce and 
generate an additional $286 million in salaries just in our 
capital district region in Upstate New York over the next ten 
years.
    The great thing about this program as well is they have a 
private sector partner. And all across the country the Haas 
Foundation has been supporting manufacturing centers like 
Hudson Valley. They have assisted similar colleges and 
technical centers across the country providing over $50 million 
in private sector grants to manufacturing programs. The Haas 
Foundation is dedicated to closing the manufacturing skills gap 
because manufacturing is an important backbone of our economy.
    So Mr. Chairman and Members of the Committee, I encourage 
you to look closely at the grant programs that go to train 
young people in advanced skills manufacturing, advanced 
technology manufacturing. Because the jobs are out there. We 
just cannot fill those jobs because we do not have enough 
qualified people. A program like this which helps train them is 
essential to that.
    And I would ask, I have prepared remarks I will ask to 
include in the record. Thank you, Mr. Chairman.
    [The information follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Mr. Culberson. Without objection, your written statement 
will be included in the record. And we look forward to working 
with you on this. Thank you. Any questions?
    Mr. Kilmer. Not really a question. I just want to thank you 
for bringing this forward. We have got areas in my neck of the 
woods that have kind of long term economic distress and they 
are seeing real opportunity in new waves of manufacturing, 
whether it be composite technology or cross laminated timber 
and a lot of stuff we did not even know about five or ten years 
ago. And I think the EDA programs are such a drop in the bucket 
but can really be a substantial impact for those areas that are 
facing economic distress. So thanks for bringing this forward.
    Mr. Faso. Thank you. And these people that are trained in 
these programs, they go and work in other businesses where they 
train local technicians too based upon the skills that they 
learned in programs like this. So these are really at the 
cutting edge and it is really important for us to help us 
restore manufacturing in our country.
    Mr. Kilmer. Thanks.
    Mr. Faso. Thank you, Members of the Committee.
    Mr. Culberson. Thank you very much.
    Mr. Faso. Thank you, sir.
    Mr. Culberson. I am pleased to recognize Congressman 
Pittenger of North Carolina. Glad to have you here with us, 
Robert.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. ROBERT PITTENGER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Pittenger. Thank you, Mr. Chairman, Ranking Member, 
Members of the Committee. I deeply appreciate the time, 
offering me this time to speak. I want to also thank you for 
including my request of a study on the National Weather Service 
radar coverage gaps in last year's Commerce, Justice, and 
Science Appropriations Bill. Although last year's language was 
not signed into law, I appreciate the signal support from the 
Committee today as I ask for your continued support.
    Many major metropolitan areas rely on the National Weather 
Service to detect and provide warning for severe weather, such 
as thunderstorms and tornados. Some cities, however, must rely 
on radars that are far away and provide weak and inaccurate 
readings due to the curvature of the Earth. The City of 
Charlotte, for example, relies on radar almost 100 miles away. 
In 2012, this resulted in the National Weather Service issuing 
a tornado warning ten minutes after the tornado touched down. 
As reported in the media, a seven-year-old Jamal Stevens was in 
his bed when the tornado tore through his house, tossing him 
into an embankment alongside Interstate 45 hundreds of feet 
away from his room. In 2013, the current system provided a 
warning but for citizens in an entirely wrong neighborhood. 
More recently a tornado in December, 2015 struck neighboring 
Union County with no warning from the National Weather Service.
    Fortunately our region has not suffered any fatalities due 
to the inadequate coverage but we should not wait for tragedy 
to act. The Charlotte region is just one example of dangerously 
inaccurate weather radar coverage. Additional areas of 
inadequate coverage include Columbus, Ohio; Northwest New 
Mexico; and Washington State.
    Our language request would require that the Commerce 
Department identify weak coverage areas and formulate a plan to 
resolve the problem, whether that be by constructing a new 
radar or by improving existing government radars. Far too many 
lives are at risk for a problem that the Federal government can 
easily address.
    So I do thank you for your consideration and I appreciate 
the time to come before your Committee.
    [The information follows:]
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
    
    
    Mr. Culberson. Thank you very much. We look forward to 
working with you on this. It is a good thing you point out and 
we appreciate you coming in.
    Mr. Pittenger. And I submit my testimony for your record.
    Mr. Culberson. It will be included in the record, without 
objection. Any questions?
    Mr. Pittenger. Thank you very much, sir.
    Mr. Culberson. Thank you very much. Next I am pleased to 
recognize Representative Jared Polis of Colorado. Glad to have 
you with us.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. JARED POLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Polis. Thank you, Chairman Culberson, and Ranking 
Member Serrano. I appreciate your punctuality as well. For 
those of us with other committee meetings it is really very 
helpful, and I appreciate the Committee working on time.
    I want to thank you for giving this opportunity to Members 
to come before you.
    I want to first encourage the Subcommittee to continue to 
move forward and not backwards on important science funding for 
our country, including priorities like the National Science 
Foundation, our national labs, our research institutions. 
Science, frankly, is one of the most important aspects of 
making our country great. In my home State of Colorado, we are 
home to 30 Federal labs, including the National Renewable 
Energies Laboratory, NOAA, NIST, NCAR. But the results go far 
beyond Colorado and my district. If you decrease funding for 
sciences, it is not only research and knowledge that you take 
backwards but also the billions of dollars of economic benefit 
that come out of our Federal research. And that is why I 
encourage you to protect funding for science.
    On the other hand I want to address some other needs that 
we hope that you can include in your Committee mark. Last week 
the President's spokesman indicated that they may spend 
Department of Justice resources to try to disrupt legal 
recreational marijuana sales in States that have set up 
successful regulatory systems. And I point out in States where 
about 60 percent of the American people live there is some form 
of legal and regulated and taxed access to marijuana, and 
frankly this would create a lot of chaos in States like mine. 
Frankly we have a solution. You can include in your Committee 
mark some language that I have worked on with Mr. McClintock 
and others that would ensure the Federal government does not 
waste its very limited resources prosecuting men and women who 
are acting in full compliance with State law. The DEA clearly 
has more pressing and urgent concerns. Many of us are concerned 
with the opioid epidemic, with meth, and of course other 
illegal drugs. And we encourage you to make it clear that the 
DEA should focus on those priorities. And of course continue to 
focus on prosecuting marijuana offenses where they run afoul of 
State law. I urge you to include language that would prevent 
the DEA from using resources to take action against regulated 
recreational or medicinal marijuana in States that have 
legalized and regulated it. And potentially find some savings 
and would decrease funding for the DEA as a whole to this 
effect. The money that they would have put into those areas you 
can either issue back to DEA for other purposes, or I know you 
are looking for savings, that can be an area you can look to 
save.
    In a series of revelations from 2013 to 2015, another issue 
that came to light is that the DEA has been gathering a vast 
database of information on personal communications of 
Americans. As you know, there was no congressional authority 
for this program, no oversight for Congress. We were able to 
include language on the floor last time this bill came up to 
protect the privacy of all Americans from the NSA and the DOJ. 
I would simply encourage you to include that language in your 
Committee bill, that prohibits the DOJ from using Federal funds 
to engage in both data collection of Americans' phone records 
or other data. It is time the Congress put an end to these 
abuses perpetrated by our own intelligence community and by the 
DEA. I am hopeful that this Committee can in the Committee mark 
provide reasonable guidance to the States with regard to the 
priorities of the DEA with the limited resources they have.
    I am happy to yield back for any questions.
    [The information follows:]
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Culberson. Thank you very much. We look forward to 
working with you on each one of these. Thank you. Any 
questions? Thank you. Thank you, Jared. I see Mr. Donovan is 
here, and we will be pleased to recognize you.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. DANIEL M. DONOVAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Donovan. Thank you very much, Chairman.
    Mr. Culberson. Your written statement will be entered into 
the record in its entirety, without objection.
    Mr. Donovan. Thank you very much, Chairman. I would like to 
thank you and Ranking Member Serrano along with the additional 
Members of the Subcommittee for allowing me this opportunity to 
testify in support of funding for the costs associated with 
protecting the President of the United States and his family 
starting on November 9th, 2016. Specifically, I ask the 
Committee to fully reimburse local jurisdictions for the costs 
associated with protecting the President-elect and his family 
from November 9th, 2016 through January 20th, 2017. I also ask 
the Committee to fund the continuing costs of protecting the 
first family and when present the President of the United 
States for the period beginning January 21st, 2017.
    Mr. Chairman, the security burden on local police 
jurisdictions like the City of New York's Police Department 
between President Trump's election and inauguration was 
unprecedented. President Trump worked and resided at one of the 
busiest intersections in the world, an area through which 
thousands of vehicles and pedestrians pass every hour. And it 
has become the City's number one tourist attraction. The 
location of Trump Tower in the heart of America's largest city 
requires more complex security arrangements than had been 
needed for past Presidents. To effectively protect him the 
United States Secret Service required logistic input from the 
New York City Police Department, along with uniformed and non-
uniformed officers to manage traffic and provide additional 
protections. I think we can all agree that protecting the 
President of the United States is a national priority and 
honor. But circumstances have dictated that the cost of such 
protection fall disproportionately on the local jurisdictions.
    As a Member of the Homeland Security Committee, I am deeply 
appreciative of the $7 million reimbursement the Appropriations 
Committee included in the short-term Continuing Resolution 
passed last December. However, over the past several weeks my 
staff and I have collaborated directly with one impacted 
jurisdiction to compiled detailed actual cost figures to inform 
an appropriation request for the full cost of protecting 
President Trump between Election Day and Inauguration Day, and 
for continuing expenses incurred thereafter. While I recognize 
that other local jurisdictions may also face funding 
challenges, I have outlined the actual cost figures provided to 
me by the City of New York, including rationales for their 
input.
    The City analyzed 25,000 patrol log entries to determine 
precisely the amount of man hours spent by the New York City 
Police Department and the Fire Department of the City of New 
York over that 73-day period. The City then referenced relevant 
collective bargaining agreements, overtime wages, and fringe 
benefit requirements to determine the cost of each working hour 
spent in defense of the President and his family according to 
rank and tenure of the committed personnel.
    I served for 12 years as district attorney of Richmond 
County and I am very familiar with the wage and benefit 
packages of the City's police officers. I personally reviewed 
the figures provided to me by the City and I believe them to be 
wholly accurate and reasonable. In my opinion the below figures 
represent the City's best effort to quantify exactly the costs 
incurred in protecting President Trump and his family. I 
further believe that the estimated cost of ongoing protection 
represents a good faith approximation and should be considered 
the best data available.
    Of course, should you or your staff have any questions 
concerning these figures my staff and I are available at your 
convenience to facilitate prompt answers.
    The New York City Police Department's daily average rate 
from November 9th, 2016 to January 20th, 2017 was about 
$308,000 per day. Collective bargaining agreements were about 
$1,323,000, and New York City's total cost between November 
9th, 2016 and January 20th, 2017 was $23,825,000. New York 
City's total cost was $25.5 million, and that includes the cost 
for the New York City Fire Department as well. The cost of 
continuing expenses after Inauguration Day, the average daily 
rate for the New York City Police Department for the First 
Family is between $127,000 and $146,000, and the average rate 
for protecting the President and First Family is about 
$308,000. The New York City Fire Department has a fixed cost, 
annual fixed cost of about $4.5 million.
    So again, I thank you for this opportunity to testify, Mr. 
Chairman. I sincerely respectfully request that the Committee 
fully reimburse State and local jurisdictions for the costs 
associated with protecting the President of the United States 
and the First Family from Election Day to Inauguration Day, as 
well as the costs incurred thereafter. I thank you very much, 
sir.
    [The information follows:]
    
                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Mr. Culberson. Thank you, Mr. Donovan. We all admire the 
courage and character of New York City's Police Department and 
the superb work that they do. We all admire them immensely and 
look forward to working with you on this.
    Mr. Donovan. I will certainly relay that message, Mr. 
Chairman. Thank you.
    Mr. Culberson. Thank you. We are very, very proud of them. 
Any other questions or comments? Mr. Serrano?
    Mr. Serrano. Mr. Chairman, this is an issue that the whole 
New York delegation has been working on with Mrs. Lowey, Mr. 
Donovan, and all the folks realize that this is a real problem. 
It is an issue. It is not a problem having the President with 
us. That is kind of a thing that New Yorkers can brag about. 
But it is not like he picked a certain part of a certain State 
somewhere. It happens to be in the vicinity of St. Patrick's 
Cathedral, not far from where the Christmas tree is going to be 
pretty soon at Rockefeller Center. And that whole area, there 
is no more traffic in New York City. And it costs a lot of 
money to protect the family. And lastly, for good or for bad, 
it looks like this President may spend less time at the White 
House than other Presidents have in the past. So he is going to 
be somewhere else. And I suspect that that somewhere else will 
be a lot in New York. So I think we need to put our heads 
together and see how we can help localities with this cause, 
especially in New York City. Because it is going to cost money 
and it may not go away.
    Mr. Culberson. I look forward to working with you.
    Mr. Serrano. Thank you.
    Mr. Culberson. I am pleased to recognize the Gentle Lady 
from New York.
    Mrs. Lowey. Okay. First of all, I want to thank you, 
Chairman Culberson and Ranking Member Serrano, for holding this 
meeting. We are so appreciative and it is good to see you.
    Mr. Serrano. Good to see you.
    Mrs. Lowey. Fellow New Yorker, thank you, Dan Donovan, for 
being here and expressing to all of us your concerns and the 
needs of New York. I am very appreciative. In fact, I drove by 
that area yesterday just to take another look. And there are 
about six metal grids that are set up. There is obviously a lot 
of traffic going to see where the President is residing in New 
York, as you very well know. And these security costs during 
the presidential transition period and beyond are quite frankly 
unprecedented in New York.
    President Trump held meetings with heads of state, CEOs, 
other security risk individuals in the middle of Midtown 
Manhattan. I really wonder how those stores are even doing 
business there. Millions of people go by there everyday and 
post-inauguration security challenges continue in New York and 
other areas like Palm Beach creating increased demands on first 
responders in many local jurisdictions.
    The New York Police Department, as you expressed, has 
served the President while continuing to protect millions of 
residents and visitors. This dual role is not sustainable 
without additional resources. So I just want to, Mr. Chairman, 
echo my friend Donovan, Mr. Donovan's sentiments. Hope that the 
Committee will consider our bipartisan, multi-region concerns 
carefully. No local jurisdiction should be left on the hook for 
extraordinary security costs like what we have seen in New York 
to cover what frankly is the Federal responsibility of 
protecting the President. And so whether he is in New York, or 
Florida, he may be playing golf in New Jersey, we are not quite 
sure where he travels to. But we know how important this is, 
because we know what the New York Police Department has done. 
So thank you very much and thank you again for your 
consideration, Mr. Chairman and Mr. Ranking Member. We look 
forward to working with you. Thank you.
    Mr. Serrano. Thank you.
    Mr. Culberson. Thank you very much. Mr. Jenkins? Any other? 
Ms. Meng? Anyone else? Thank you. Thank you, Mr. Donovan.
    Mr. Donovan. Thank you, Chairman. Thank you all.
    Mr. Culberson. I see we have been joined by Mr. Panetta of 
California and we welcome your testimony. Thank you. You 
succeeded Sam Farr?
    Mr. Panetta. Correct, sir.
    Mr. Culberson. That is great. Give Sam our best wishes.
    Mr. Panetta. I will. I will. He is enjoying his time 
retired, that is for sure.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. JIMMY PANETTA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Panetta. Good morning. And thank you, Mr. Chairman 
Culberson. I appreciate this opportunity.
    Mr. Culberson. Without objection, we will enter your 
written statement into the record.
    Mr. Panetta. That is fine.
    Mr. Culberson. In its entirety.
    Mr. Panetta. Please. Thank you. Mr. Serrano, thank you. It 
is an honor to be here. I appreciate this opportunity. And this 
opportunity to testify in front of this Committee as I also 
appreciate the importance of the Appropriations Committee's 
annual check on our nation's priorities.
    So I thank you for this chance to talk about something that 
is very important to me and very important to all of us, and 
that is our National Oceanic and Atmospheric Administration's 
programs that promote stewardship for our nation's marine 
resources.
    I represent the Central Coast of California, and a 
coastline that I believe, and if you ask most people that drive 
down Highway 1 and Big Sur and go to the Monterey Bay, will 
tell you is the most magnificent meeting of land and water in 
the world. In my congressional district there on the Central 
Coast we are fortunate to have the Monterey Bay National Marine 
Sanctuary. I call it basically a national park. It is a part 
that protects 276 miles of shoreline and reaches a depth of 
12,700 feet down the deep Monterey Bay Canyon. People call the 
sanctuary the Serengeti of the Sea because of its 34 species of 
marine mammals, over 500 species of fish, and more than 180 
species of sea birds and shore birds.
    All of our nation's marine sanctuaries are managed by 
NOAA's Office of National Marine Sanctuaries. That management 
helps spur economic growth and generate approximately $8 
billion for the local economies that surround our national 
sanctuaries. Moreover, marine sanctuaries provide public access 
for research, exploration, education, and ocean tourism. If you 
go to the Monterey Bay region you will understand with its 
aquarium, with its, many outdoor recreation vessels that enjoy 
the Monterey Bay.
    But also something that I believe that people do not know, 
on the Monterey Bay there is close to 24 research institutions 
that surround that bay and are managed by such schools as 
Stanford, Cal State University Monterey Bay, San Jose State, 
University of California at Santa Cruz as well.
    Based on that, I am respectfully requesting $65.5 million 
for fiscal year 2018 for the Office of National Marine 
Sanctuaries. More specific within that account I urge $57 
million to the sanctuaries in marine protected areas and $8.5 
million to the marine sanctuaries construction program. I 
believe, I submit to you that it is an investment in our 
largest natural resource, the ocean. Something that provides 
food, medicine, employment, scientific research, and of course 
national security.
    Another area I would like to talk about is NOAA's education 
program Bay Watershed Education and Training, otherwise known 
as B-WET. That is an environmental education program that 
promotes authentic experimental learning for K-12 audiences and 
their nearby watersheds. This program utilizes local STEM 
professionals as guests for classrooms and provides 
professional development to educators to enhance their skills 
in environmental education. Over the past five years, dozens of 
programs in my district have received B-WET funding. With 
grants as small as $20,000 environmental educators expose a 
diverse group of K-12 students to the importance of diverse 
watersheds, basic scientific research methods, and 
environmental stewardship.
    As a prosecutor I worked a lot with youth in Salinas, 
California. And I can tell you that there are many children who 
live less than 20 miles from the ocean yet never have the 
opportunity to see what I have just talked about. And I believe 
that B-WET provides them an important chance to do that, to do 
something which I feel is something that many of us take for 
granted. That is why I am respectfully requesting the 
Subcommittee allocate $20 million for B-WET in fiscal year 
2018.
    The fisheries data collections, surveys, and assessment 
programs supports the eight regional fishery management 
councils that develop and enforce management plans, conduct 
data research and fish stock assessments, as well as national 
fish surveys. That information is used by eight regional 
councils, NOAA's National Marine Fisheries Service, and three 
interstate marine fisheries commissions. The councils rely on 
these fisheries surveys to determine annual catch limits for 
the fisheries management plans and to monitor the health of 
fish stocks. Therefore I respectfully request $164.7 million 
for fiscal year 2018 for those programs.
    The Observers and Training Program. Now that is, although I 
realize that fishing regulations set forth by the regional 
councils are meant to prevent depleted U.S. fish stocks, the 
United States imports 90 percent of its seafood. Some of this 
seafood may be obtained by illegal overseas fishing activity, 
such as mislabeling products and overtreating products with 
water retaining chemicals. The funds of the observers and 
training program, they are designated within their fisheries 
science and management. And it would support operations that 
inspect and enforce import restrictions on illegally harvested 
and improperly documented seafood and marine resources. 
Training is necessary to conduct audits on incoming seafood 
deliveries and enhance overall seafood traceability. In order 
to support these operations I would request respectfully $45.5 
million to be appropriated to the Observers and Training 
Program.
    I strongly urge this Subcommittee to invest in our nation's 
largest natural resource, our ocean. It is important that we 
not only protect our oceans for recreation purposes, but for 
our $282 billion blue economy as well as our future. These 
programs help educate our youth, protect our seafood that 
reaches our tables, preserve the marine environment, and employ 
thousands of Americans along our coasts.
    I thank you for your time, your consideration, and 
hopefully your investment in these crucial programs. Thank you.
    [The information follows:]
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
    Mr. Culberson. Thank you very much, Mr. Panetta. Our marine 
sanctuaries are national treasures and we appreciate very much 
your testimony. I look forward to working with you.
    Mr. Panetta. Thank you, Chairman. Likewise.
    Mr. Culberson. Any questions? Yes, Mr. Kilmer?
    Mr. Kilmer. Thank you, Mr. Chairman, I just want to thank 
you for raising the issue around some of NOAA's programs and 
the NMFS programs in particular. I had not fully appreciated 
until I got here how big a deal those programs are to economic 
development in communities that depend on an active fishery. We 
have had multiple disaster declarations in my neck of the woods 
and, you know, we face the potential of hatchery closures if 
NOAA and NMFS cannot get the job done. So I just appreciate you 
coming in and highlighting the importance of these programs.
    Mr. Panetta. Thank you, sir.
    Mr. Culberson. Mr. Serrano.
    Mr. Serrano. Very briefly, NOAA has been very much involved 
in my community. In fact there is a quick story that I will 
tell you, one that got written up in National Geographic and 
everywhere and throughout the world. And that is the fact that 
there is actually a river called the Bronx River that runs 
through the Bronx for 23 miles up to Westchester County. And 
there was cement on one side, and cement on the other, and a 
polluted river in the middle. So polluted that when NOAA got 
involved and the Army Corps of Engineers got involved, a lot of 
agencies, the first thing we took out was a jeep, a jeep that 
was in the river. Today that river has fish, that river has 
boating, and for the first time in 200 years, New York City, 
which used to be a beaver pelt colony and that was its main 
business, a beaver came back, and now a second beaver came 
back. There is a reason for that. And do not say it is we had 
earmarks. And when you have earmarks you get the beaver named 
Jose.
    And so, so--then but here is where I messed up. When the 
new beaver showed up, the Bronx Zoo called me up, because they 
were involved here, and said, name the beaver. I said, I do not 
want to be a wise guy, you know, arrogant. Okay, we will do a 
`name the beaver' play on the Internet. You know what they 
called the second beaver? Justin Beaver. But all that is to say 
that this river is alive, doing well, it is a model, and it was 
because these agencies got involved. And with the children 
left, there are now about 25 community programs from after 
school education and math programs and music programs that came 
from that nucleus which was the revival of the river.
    Mr. Panetta. Well in Monterey we do not have a lot of 
beavers, but we do have a lot of sea otters. And I can tell you 
because of these programs the population is flourishing and I 
am sure there are lots of naming opportunities as well.
    Mr. Culberson. It is a great story and it is going on 
nationwide. The Houston Ship Channel used to be terribly 
polluted and it is cleaned up now, and you are actually seeing 
porpoises coming far up the channel. So it is a great story. 
And I know everybody would love to hear about the beaver, too. 
I am glad. Thank you very much. Thank you.
    Mr. Panetta. Thank you, sir. I appreciate the opportunity. 
Thank you.
    Mr. Culberson. And I see Sheriff Reichert is with us, 
Congressman David Reichert of Washington's Eighth District. We 
are glad to have you with us and your written statement will 
appear in the record in its entirety, without objection.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. Culberson. I am glad to have you here and to recognize 
you for five minutes.
    Mr. Reichert. Thank you.
    Mr. Culberson. Thank you.
    Mr. Reichert. Before I get started I would like to ask 
unanimous consent to have a letter written by two Law 
Enforcement Caucus Chairs, myself and Bill Pascrell, that has 
been sent to the President regarding the topic of the COPS 
grants.
    Mr. Culberson. Yes, without objection.
    Mr. Reichert. Thank you.
    [The information follows:]
    
                     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                       Tuesday, February 28, 2017.

                                WITNESS

HON. DAVID G. REICHERT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Reichert. I do not know how I follow Jose Beaver and 
Justin Beaver, but I am going to give it a shot. I have lots of 
stories, too. But, you know, it is a great story that you told, 
sir, about animals returning to a clean river. This is really a 
story when you talk about law enforcement and community it is 
really a story about, you know, human beings who can function 
in a community, who come back to neighborhoods who have been 
sort of a dirty river in the middle of, some pretty productive 
parts of our cities across the country.
    Part of the success in allowing that sort of thing to 
happen has been the COPS program, has been the ability for 
police officers, police chiefs, and sheriffs across the country 
to come to the COPS office and make application for hiring 
grants.
    Now when I was the sheriff, my last eight years of my 33-
year career in Seattle, I used the COPS grants on a number of 
occasions. And yes, it is true the Chairman and I have had 
these discussions. It is very, very difficult for us to apply 
for a grant and three years later come up with the full cost of 
the employees. But it does give you an opportunity to work with 
your council and your State legislators to come up with those 
funds.
    You know, after 9/11, I think it is one of the great 
success stories of the COPS office. It provided an ability to 
adapt and respond quickly to critical law enforcement incidents 
or emerging issues in the field, and they have done so many 
times including providing $92 million to the City of New York 
shortly after 9/11 for officer hiring and making hiring grants 
available to Orlando, Dallas, San Bernardino in the aftermath 
of mass shootings. And there are other stories that I could go 
into. And I know the controversy around COPS grants in that 
local, you know, cities and counties and States should be 
paying for these police officer positions on their own.
    However, today there is a great need, an emergent need for 
this sort of help. And I think that, again as the Chairman and 
I have visited on many occasions, on what does the future hold 
for supporting local law enforcement across this country? And I 
know moving money to Byrne JAG is one way to do that. But 
unless there is some specific language that directs that some 
of the money be actually spent on hiring police officers, it 
is, I do not know if it is going to happen.
    The other thing I will, I want to thank the Chairman for 
and Members of the Committee is their commitment to increase 
the funding on Project Safe Neighborhoods, which is the project 
that was specifically designed when I was a sheriff and I was 
an integral part of developing Project Safe Neighborhoods, a 
$20 million increase in that budget and I appreciate that.
    There is more to do in the area of gangs and gun violence 
and drugs, as you know. But I think today my message is we need 
to keep intact some form of COPS hiring grants and transition, 
begin a transition to supporting police departments and 
sheriffs and police chiefs across the country in other ways so 
that they can free up money to actually hire officers. So I 
think it is important to look ahead to 21st Century solutions 
to assisting police departments and sheriffs' offices in 
becoming accredited, to having training programs that are top 
notch, to having evidence rooms that are operating at the 
highest level of expertise in collecting evidence, storing 
evidence, preparing it for court, to hiring. So this 
accreditation process to me is one of those most important 
things. But first and foremost we have got to make sure that 
today, in this most critical time of keeping our neighborhoods 
safe so that real people come back to our neighborhoods. It is 
absolutely critical that we keep intact for a while the COPS 
grants program.
    Thank you and I yield back.
    [The information follows:]
    
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    
    Mr. Culberson. Thank you very much, Mr. Reichert. You know, 
we admire and respect our men and women in uniform. And I was 
so pleased to hear when President Trump came to the Republican 
retreat to tell us that one of his top priorities was to ensure 
that our men and women in blue and our men and women in uniform 
around the world are respected as they should be for the great 
work that you do. Thank you.
    Mr. Reichert. Thank you.
    Mr. Culberson. Thank you very much. Mr. Kilmer.
    Mr. Kilmer. Thanks, Mr. Chair. I just want to thank you for 
speaking about the importance of COPS grants, certainly around 
the hiring issues. But maybe you can just speak briefly to the 
importance of those grants also in trying to enhance the 
relationship between law enforcement and the communities in 
which the work? In our neck of the woods, you know, for example 
Tacoma has undertaken this Project Peace initiative to try to 
kind of lower the temperature around some of the potential 
concerns and, certainly COPS grants can be really vital in that 
regard, too, if you want to speak to that?
    Mr. Reichert. Yes, I think that is a critical point to 
make. I spent a lot of time in the Tacoma area back in the days 
when I was investigating the Green River case and know the 
neighborhood and community pretty well. One of the critical 
tools that law enforcement can use today our store front 
officers, our school resources officers, our officers who are 
engaged in the Police Activities League, the PAL program. Any 
outreach that police officers and the community can do together 
to go into those neighborhoods that may not have the most 
positive view of law enforcement, once they get to know the 
police officers the neighborhood begins to change, believe it 
or not.
    I will tell just a short story about Baltimore. I am sure 
they will be proud to hear that I have shared this story, 
because it is great work that they are doing in Baltimore. One 
of the programs that they have recently instituted after some 
of the violence that has occurred in their city, tragedies, 
they planned an outing with, out into the outdoors and a hiking 
and camping trip with some inner city youths. And they spent a 
week in this, up in this camp. And at the end of the week, 
everybody is in plain clothes, but at the end of the week there 
was a gathering of the young people and the counselors around a 
campfire. But there was something different about this 
gathering versus the gathering that has occurred the entire 
week with this group. This time the counselors wore their 
police uniforms. And surprised and shocked all of the young men 
and women who were members of gangs, or were about to be 
affiliated with gangs, they were shocked and amazed and 
surprised. They had just spent the entire week and had a ball 
with a bunch of cops. So they made tremendous progress as a 
result of that interaction.
    The COPS office gives police departments and sheriffs' 
offices and State police officers across the country the 
opportunity to build this sort of program when they do not have 
the funds right now to do that. And it is absolutely critical 
and I think will and can result in the reduction of crime and 
building neighborhoods.
    Mr. Serrano. Mr. Chairman.
    Mr. Culberson. Mr. Serrano.
    Mr. Serrano. Mr. Chairman, I want to thank you for your 
testimony and for your support of the COPS program. I was here 
when President Clinton worked closely with Congress and vice 
versa to create this program. And it was never the intent that 
localities pay for it. The intent was for the Federal 
Government to be involved in augmenting and helping the local 
communities with all the issues that they had. So those people 
that now make it controversial, as you stated in your opening 
statement, by saying that localities pay for it are forgetting 
what the reason for creating a separate program was. Otherwise, 
why would you need a Federal program if you are just going to 
tell localities to pay for it? It was to create a better 
situation and a better atmosphere. Because God knows, there 
might be five, ten, 15, 100 issues in this country that merit 
immediate attention. One of them is for the community to 
understand who law enforcement is and for law enforcement to 
understand who the community is. They both need each other, and 
they need to know that as soon as possible.
    Mr. Reichert. If I could comment real quick, Mr. Chairman? 
I think it is absolutely critical, though, that the community, 
the local community, has some skin in the game, and they need 
to be a part of this process and eventually, I think, need to 
take responsibility for it. So I am in agreement with you on 
the initial intent of the COPS office. But I have found that 
unless you, when you go into communities, and now I am talking 
about my local community as I served as the sheriff and as a 
deputy detective and SWAT commander, hostage negotiator, when 
you go into the communities and you begin to work with the 
community, it is all about the police are going to do this, and 
the community is going to do that around you. And it is not the 
community involved and engaged with us, there is no success. So 
I do think that there is a responsibility by local governments 
to be, to have some skin in the game and be a part of the 
process.
    Mr. Culberson. I have always felt that the single, most 
important part of our law enforcement, the entire law 
enforcement community in the United States, from our men and 
women in uniform, a good heart, good common sense, dealing with 
the situation in neighborhoods that you know better than 
anybody else. So I really appreciate your service.
    Mr. Reichert. They just need to know now they have got 
backup.
    Mr. Culberson. That is right.
    Mr. Reichert. All right.
    Mr. Culberson. We want to make sure they all know we have 
got their back. Thank you.
    Mr. Reichert. Thank you, Mr. Chairman. Thank you.
    Mr. Culberson. Thank you. Good morning, Congresswoman 
Moore. We are delighted to have you here with us and your 
written statement will be entered into the record in its 
entirety, without objection. We are pleased to have you with 
us.
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. GWEN MOORE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
    Ms. Moore. Thank you so much, Chairman Culberson and 
Ranking Member Serrano, and my colleagues and distinguished 
Members of the Subcommittee. I want to thank you for this 
extraordinary opportunity to testify on the importance of 
investing in the cost effective, life saving Violence Against 
Women Act programs and the Victims of Crime Act. I am the 
representative from Wisconsin's Fourth Congressional District 
but I am also here as a survivor of both domestic and sexual 
violence.
    The crimes of domestic and sexual violence are pervasive 
and life-threatening. The CDC's National Intimate Partner and 
Sexual Violence Survey revealed that domestic violence affects 
more than 12 million Americans each year. Approximately 15.5 
million children are exposed to domestic violence annually. 
Every day in the United States an average of three women are 
killed by a current or former intimate partner. In my own home 
State, 68 lives were lost due to domestic violence in 2016, the 
highest that we have seen since we started counting.
    Likewise sexual assault is a national scourge requiring 
local VAWA supported resources. Nearly one in five women have 
been the victim of rape or attempted rape, and half of all 
women have experienced some sort of sexual violence. These are 
not pretty data. And over 1.8 million individuals in Wisconsin 
have been raped or sexually assaulted.
    But with VAWA funding, Wisconsin rape crisis centers helped 
over 12,000 survivors in 2015. And I am incredibly proud of the 
Wisconsin programs and I know there are programs around the 
country, in all of our districts, because of Violence Against 
Women funding.
    It was only a few years ago that we worked tirelessly in 
this body to reauthorize the passage of a bipartisan VAWA. We 
worked tirelessly to ensure the law meets the needs of all 
victims, including landmark provisions that granted survivors 
additional protections, safe housing and justice for Native 
American women. Our nation has made such phenomenal progress in 
understanding and addressing violence against women because we 
have made a national, ongoing, bipartisan annual investment.
    Before the passage of VAWA these crimes were family 
matters, in the shadows. With the passage of VAWA the infusion 
of Federal funds fostered unprecedented coordination between 
front liners responding to domestic violence and sexual assault 
crises. In communities VAWA driven coordination urged 
professionals out of their silos and brought them to a common 
table. VAWA's national scope ensures that successes in 
individual communities are brought to scale and they continue 
to be replicated across the country.
    VAWA's work is complimented by VOCA, which funds direct 
services to victims of all types of crimes, including dating 
and stalking. Together VAWA and VOCA have fueled our undeniable 
national progress. VAWA saved an estimated $12.6 billion in net 
averted costs in its first six years alone. Cutting funding 
would erode this progress and jeopardize lives. Law enforcement 
officers, prosecutors, such as Mr. Reichert, judges, would not 
have the training and the tools they need to ensure victims' 
safety and to hold perpetrators accountable.
    An overwhelming need still remains. According to the 
National Network to End Domestic Violence violence survey 
count, in just one day, although we have done such a great job, 
11,000 requests for services are unmet due to lack of funding 
and resources. More than a third of the nation's 1,300 rape 
crisis centers have a waiting list for critical services, while 
over 40 percent have faced a reduction in staffing over the 
past year. For those individuals who are not able to find 
safety the consequences can be dire, even fatal.
    We know that when immediate services are available victims 
can escape life threatening violence and rebuild their lives. I 
urge you to support full funding for all VAWA programs and 
increased release of VOCA funds are you work on the fiscal year 
2018 CJS bill. Our Federal resources create vital cost 
effective programs that help reduce related social ills and 
save our nation money now and in the future. And I yield back 
the balance of my time.
    [The information follows:]
    
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Culberson. Thank you very much, Congresswoman Moore. We 
share your support for the importance of these programs and 
appreciate your personal passion and commitment to help victims 
of violence all over the country.
    Ms. Moore. Well, Mr. Chairman, you know, I always say that 
it will just be a great day when we can defund this program and 
we will not need it anymore. We can just work our way out of 
this problem. And unfortunately that is not on the horizon 
right now.
    Mr. Culberson. Something we can keep working towards, 
rebuilding stable families and ensuring people respect each 
other. Do all we can to instill those core American values in 
every new generation that comes along. Thank you very, very 
much for your testimony.
    Mr. Serrano. Mr. Chairman.
    Mr. Culberson. Mr. Serrano.
    Mr. Serrano. I want to thank you for your testimony. It's 
not every day, if you will pardon me bringing it up again, that 
you can get a person before you who not only represents 
victims, but was a victim himself or herself. And so your 
testimony is very powerful.
    I also want to congratulate you on the fact that you never 
give up on this issue. I mean, every time you speak, you could 
be speaking about a trip to the moon and you bring this issue 
up. And I say that not in a jocular way, but seriously and with 
great respect, and I thank you for that. And to walk away 
thinking that you just made a statement and that is it, we take 
seriously and we hear and we take notes, and all these folks 
remind us of what we heard during these hearings.
    Thank you.
    Ms. Moore. Thank you so much. And, you know, if I can just 
respond to that, Mr. Serrano. I'll be 66 God willing in April 
and so I was sexually assaulted in my life long before there 
was a Violence Against Women Act, before there were any--there 
were no calls you could make to anyone. And before there was 
mandatory reporting, you know, I was sexually assaulted as a 
child, sexually assaulted as a teenager, as a college student. 
And I have even gone to court, even dared to go to court where 
I was on trial, you know, what kind of underwear did I have on, 
did I have any on, and the perpetrator got off. So this is very 
personal for me. It leaves indelible marks on you; maybe that's 
why I bring it up, it changes who you are.
    But I do remember some of the first people that rescued me 
from a violent situation where I was almost killed. I mean, and 
it was a woman from Jamaica who was a CNA and another white 
woman who was a CNA, and they whisked me off. They were people 
who just barely knew each other, but they joined together for 
me. And we can't rely on those informal systems, because like I 
said half of all--I just don't know any women, to be honest, 
who haven't been beaten or raped or held hostage by their 
immigration status, and that's unfortunate.
    Mr. Culberson. There is just no lower form of life on Earth 
than someone who would hurt a woman or a child. I just admire 
you immensely and appreciate so much your testimony. And 
obviously because of those two women that helped rescue you, 
look where you are today.
    Ms. Moore. Here I am.
    Thank you so very much.
    Mr. Culberson. What a great country. And God bless you and 
this great testament to your character and courage, and we look 
forward to working with you on this.
    Thank you.
    Ms. Moore. Thank you, colleagues.
    Mr. Cartwright. Mr. Chairman.
    Mr. Culberson. Mr. Cartwright.
    Mr. Cartwright. I would like to weigh in too with my 
thanks, Representative Moore. It has been a pleasure to get to 
know you and to serve with you. And to hear you bring your 
characteristic passion to this subject, it was a treat for me. 
Thank you for doing that.
    And thank you also for the written submission. This is 
really an erudite treatise on the things that you are talking 
about. It gives extensive references to authoritative sources 
that back up every single thing that you have said.
    I come from Scranton, Pennsylvania, birthplace of Joe 
Biden, and I am going to be reporting back to Vice President 
Biden about the work you have done to stand up. Scranton was 
his birthplace, but the birthplace of VAWA----
    Ms. Moore. That is exactly right.
    Mr. Cartwright [continued]. Was in his senatorial office, 
and he will be pleased to hear what I have to tell him.
    Thank you so much.
    Ms. Moore. I love Joe, I do.
    Mr. Culberson. Thank you very much.
    Ms. Moore. Thank you.
    Mr. Culberson. We are pleased to have with us today 
Representative Brian Fitzpatrick of Pennsylvania's 8th 
District. And your written statement will be entered into the 
record in its entirety without objection, and we thank you for 
taking the time to be with us and look forward to your 
testimony.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. BRIAN FITZPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Fitzpatrick. Thank you, Chairman Culberson. Thank you 
Ranking Member Serrano and the entire Committee. And I am here 
representing today the members of Pennsylvania's 8th 
Congressional District in support of robust funding for the 
Comprehensive Addiction and Recovery Act, also known as CARA.
    Communities across this nation have been devastated by 
opioid-related addiction. Drug overdoses have increased 
substantially and it is now the leading cause of accidental 
death in the United States. And the opioid epidemic continues 
to claim lives in my district, as well as pretty much every 
Member of Congress' district across this country.
    From my district, from Levittown to Lower Salford, there is 
no part of our district that has been left unaffected. Last 
year in Bucks County, which is the largest part of my district, 
opioid-related deaths rose by a staggering 50 percent last 
year. In neighboring Montgomery County, opioid overdoses 
claimed a staggering 240 lives, a 36-percent increase from the 
previous year.
    In Chairman Culberson's district, two Houston-area 
newspapers found Harris County had 275 prescription drug-
related deaths in 2015. And in the New York City area, in 
Ranking Member Serrano's district, Bronx County had the highest 
rate of heroin-involved overdose deaths and the largest 
increase of opioid-related deaths.
    With the passage of CARA last year, we now are at a pivotal 
moment in decreasing opioid-related death trends and targeting 
unlawful distributors through appropriations.
    With thoughtful design, CARA utilizes a balanced strategy 
encompassing six pillars: prevention, treatment, recovery 
support, criminal justice reforms, overdose reversal, and law 
enforcement. The Comprehensive Opioid Abuse Grant Program 
provides $103 million annually in grants to States, local 
governments, and tribal enforcement agencies.
    Specifically, in fiscal year 2017, the 2017 funding bill 
released last May, Appropriations funding would allow the 
Attorney General to make grants in the following sections: $42 
million to drug courts, $12 million to mental health courts and 
adult and juvenile collaborative program grants, $12 million 
for grants for residential substance abuse treatment for State 
prisoners, $7 million for veteran treatment core programs, and 
$14 million for States to expand or improve prescription drug 
monitoring programs.
    This month I had the opportunity to discuss the opioid 
epidemic in my home district with the Bensalem Township Police 
Department, Bucks County government officials, and members of 
the Pennsylvania General Assembly, and each stakeholder 
emphasized the need for more and fuller funding for CARA, but I 
highlight two groups specifically.
    First, State officials found it necessary to make 
significant enhancements to prescription drug monitoring 
program, the PDMPs. The PDMPs could incorporate the same 
principles of other monitoring programs, including real-time 
data, interoperability, and incorporate a user-friendly design. 
I cite the Emergency Department Information Exchange and the 
National Precursor Log Exchange as existing systems that 
incorporate these principles successfully.
    Second, our law enforcement officials, and they touted the 
need for additional funding to do the following: expand 
overdose reversal capacity, expand prescription drug take-back 
programs across the country, investigate illicit activities for 
heroin and fentanyl, and improve efforts in seeking out 
unlawful distribution of prescription opioids.
    And in my discussion with Public Safety Director Fred 
Harran of the Bensalem Police Department, I learned that that 
department had reported a 233-percent increase in fatal 
overdoses between 2015 and 2016, which is unbelievable. The 
Bensalem Police Department, this police department is the 
ninth-largest police department in Pennsylvania and the largest 
police department in Bucks County, and they have minimal 
funding to combat this program and this problem and they 
strongly believe that increased funding will enable them to do 
more, especially save lives.
    And as a CPA in my former life, I fully understand the 
challenges that the Appropriations Committee faces with regards 
to allocating resources and being mindful of the budget, but I 
am confident that there will be a positive economic and more 
importantly positive social returns by investing money in 
saving lives, where families can stay together and live 
productive lives together.
    And I want to applaud Representatives Rogers, Carter, and 
Jenkins for their continued efforts as Members of the 
Congressional Addiction Treatment and Recovery Caucus, and 
personally as a member of the Bipartisan Heroin Task Force I 
ask this Committee to fully fund CARA for this fiscal year, for 
2018.
    And I want to thank you for your time and consideration, 
and just ask that when you are considering the appropriations 
process, this is an issue that literally affects people's 
lives, it is a matter of life and death, and it is an epidemic 
across all districts in this country.
    And I thank you for your time and I yield back.
    [The information follows:]
    
                     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Culberson. Thank you very much, Mr. Fitzpatrick.
    This is an absolutely horrible, out-of-control epidemic 
that has just swept the country and we appreciate very much you 
coming in to testify on behalf of this important program.
    And obviously it is something that we need to do all that 
we can to help local law enforcement and help deal with the 
fentanyl in particular. In visiting the DEA recently, I was 
horrified to see the explosion in fentanyl, which is so deadly 
and so powerful that officers going in and cleaning up these 
labs, leaving a speck on their skin they can get an overdose. I 
mean, this stuff is just pure poison.
    So we really appreciate your bringing this to us today.
    Mr. Fitzpatrick. Thank you, Chairman.
    Mr. Culberson. And we look forward to working with you on 
it.
    Mr. Fitzpatrick. I appreciate it.
    Mr. Culberson. Any questions? Thank you very much.
    Mr. Fitzpatrick. Thank you for your time.
    Mr. Culberson. I am pleased to recognize Congressman Danny 
Davis of the 7th District of Illinois.
    We are pleased to have you with us here today, Mr. Davis, 
and we will enter your written statement into the record in its 
entirety without objection and look forward to your testimony. 
Thank you.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. DANNY DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Davis. Thank you very much, Mr. Chairman and Ranking 
Member Serrano.
    I am here today to advocate for a critical program that is 
reconnecting families and stabilizing communities, the Second 
Chance Act.
    The Second Chance Act, which passed with overwhelming 
bipartisan support and was signed into law in April of 2008, 
authorized $165 million for programs that has improved 
coordination of reentry services and policies at the State and 
local level, nonprofit organizations which mentor other 
transitional services to adult and juvenile offenders 
reentering the community.
    At the end of 2014, Federal, State, and local correctional 
facilities held more than 2.2 million people. This amounted to 
at least one in every 200 residents. Unfortunately, most 
individuals face numerous challenges when returning to the 
communities from prison and research indicates that over half 
return to prison within three years of their release.
    At least 95 percent of the people incarcerated in State 
prisons will be released back to their communities at one 
point. Research suggests that without support more than two 
thirds will be rearrested within three years of their release 
and half will be re-incarcerated. However, when individuals 
returning from prison are able to access the services they need 
to rebuild their lives, the families and communities they 
return to are stronger and safer.
    There have been more than 700 grants awarded in 49 States 
allowing reentry programs to expand. Second Chance grantees 
have served more than 137,000 participants since 2009 with 83 
percent of all adults serving receiving mental health and 
substance abuse treatment services and referrals. Also 60 
percent of all adult participants have received cognitive-based 
services.
    Major Second Chance Act grant programs, including those 
awarded to community-based organizations, are prioritizing the 
use of grant dollars for independent program evaluations. State 
and local government and nonprofit organizations around the 
country have been eagerly launching innovative reentry 
programs, and families and communities are desperate to access 
the services the Second Chance Act provides.
    Mr. Chairman and Ranking Member, I am hopeful for full 
funding of the Second Chance Act and I look forward to working 
with you on this request.
    I would also like to submit for the record further 
information on the success of the Second Chance Act.
    I thank you and yield back.
    [The information follows:]
    
    
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mr. Culberson. Thank you. Without objection, the written 
documents that you have offered to the Committee will be 
entered into the record.
    And I appreciate very much you bringing this important 
program to our attention today and thank you very much for your 
testimony. We look forward to working with you.
    Mr. Davis. Thank you.
    Mr. Culberson. Mr. Serrano.
    Mr. Serrano. Thank you very much.
    Mr. Davis. Thank you.
    Mr. Culberson. Thank you.
    I am pleased to recognize my neighbor and good friend, 
Congressman Ted Poe of Texas' 2nd District.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. TED POE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Poe. Thank you, Mr. Chairman, Mr. Ranking Member, Mr. 
Serrano.
    As the Chair knows, I have spent most of my life, if not 
all of my life, in the criminal justice system, first as a 
prosecutor for eight years in felony court, 22 years at the 
district court in Houston trying felony cases, and now in 
Congress I am proud to serve with the Co-Chairman on the 
Victims' Rights Caucus.
    I want to talk about two things. And over all of those 
years I have seen not only defendants, but victims of crime, 
and some of those victims, mainly sexual assault victims, still 
contact me from time-to-time just to check in and I want to see 
how they are doing, because crime especially to assault 
victims, many of them never recover, they just don't; we would 
hope they would, but they don't.
    So there's two programs that are just excellent. There is 
the Victims of Crime Act that Congress in 1984, Mr. Serrano may 
have been here, I know you weren't, but passed with bipartisan 
support that was a great idea. It allowed Federal judges to 
fine convicted criminals in Federal court and the money went 
into a fund for crime victims. Make the criminals pay rent on 
the courthouse, pay for the system they created. And it is not 
taxpayer money, it is money that goes to victims, at least it 
is supposed to.
    And a very novel, wonderful idea, and now that fund is $12 
billion. And that is a lot of money even for us, you know, and 
only a fraction of that money is spent each year on crime 
victims. And in all due respect, the rest of that money, the 
other 80 percent is used as an offset to fund other things that 
have nothing to do with crime victims. That is very 
unfortunate, I will just use that word.
    That money belongs to crime victims, it doesn't belong to 
other programs, but it is so tempting to take that money and 
use it as an offset. Remember, it is not taxpayer money, it is 
money that belongs to the victims.
    So I first want to say I would encourage this Committee to 
spend more of that money. It is a little over two and a half 
billion that is spent, but the needs for crime victims, 
especially in the day of trafficking that we have, is 
increasing every year. And some of these shelters are doing 
great just to keep the lights on and yet here is this money 
that maybe could go to them to help crime victims.
    So spend more of that money and send it to where it 
belongs, that is to crime victims, not to other projects that 
have nothing to do with crime victims.
    The other one is the Violence Against Women Act that was 
re-authorized in 2013. This program--of course, we all know 
what's going on--helps Federal funds, it goes to grants to 
domestic shelters and also to rape crisis centers. Some of that 
money is the only money that rape crisis centers get is the 
Violence Against Women Act funding, and it is done through 
grants that goes through the grant process and all of that 
stuff. Some VAWA money--I say VAWA--VOCA money goes to that 
program, but not all of it. It is primarily grants by the 
Federal government.
    So those are two programs where we can speak for victims. 
Victims do not have a high-dollar lobby to come up here wanting 
something, you know, wanting anything. They primarily, the 
people that come up here, I call them the victims' posse, they 
are made up of victims just trying to help other victims and 
most of them have had some tragedy in their life that they are 
trying to deal with.
    So only Congress can speak for victims, there is no one 
else. VOCA money belongs to victims, spend more of it because 
it is their money. The VAWA grants are something that we do 
that is excellent. And I know there are a lot of programs and 
we do a lot of things, and we spend money on everything from 
the military to bridges and roads, but what better way to spend 
money is take care of American citizens who have been crime 
victims.
    And with that I will answer any questions that you have and 
that's just the way it is.
    [The information follows:]
    
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Culberson. Thank you, Judge.
    I think you are exactly right, only Congress can speak for 
victims; they don't have anybody else. So I deeply appreciate 
it. And I like your description of this money as rent on a 
courthouse.
    Mr. Poe. Yes.
    Mr. Culberson. That is a good way to think about it. Make 
these bums pull their own weight, pay their freight.
    Mr. Serrano.
    Mr. Serrano. I appreciate your testimony with knowledge 
that you come before us, firsthand knowledge of how these 
programs work and where the dollars should be going after it is 
collected.
    So I think that you make an impact on what we have to go 
through when we make these decisions, and I thank you.
    Mr. Poe. Thank you, sir.
    Mr. Culberson. And it is important to remember too that 
Houston, unfortunately, has become a hub for human slavery. The 
sex trafficking is just awful, and I really appreciate your 
leadership and work on that.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Culberson. And I will do all I can with our 
Subcommittee to work with you and help.
    Thank you, Judge.
    Mr. Poe. Thank you all.
    Mr. Culberson. Good afternoon. I appreciate having 
Congressman Patrick Meehan from Pennsylvania's 7th District 
with us here today. And your written statement will be entered 
into the record in its entirety without objection.
    And thank you for your testimony today and being absolutely 
spot-on-time at noon. Thank you.
                              ----------                              

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. PATRICK MEEHAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Meehan. I want to thank everyone with the opportunity 
to take up a few moments of testimony to testify before you and 
Ranking Member Serrano, and this message goes back to the 
entire Subcommittee.
    I appreciate the opportunity to testify about the 
importance of providing funding to continue to address the 
problems of opioid and heroin addiction. It is a special honor 
to be here because many of you have been leaders on these 
issues long before opioid and heroin addiction and overdoses 
became a nationwide epidemic.
    As you know, Section 201 of the Comprehensive Addiction and 
Recovery Act authorizes $103 million annually for the 
Department of Justice to combat the opioid epidemic. The DOJ 
funding will be used to support State efforts to prevent and 
respond to the opioid epidemic.
    The law authorizes a comprehensive opioid abuse grant 
program for States that enables them to use Federal funding to 
implement or expand treatment programs as an alternative to 
incarceration, provide training and resources to first 
responders to administer opioid overdose-reversal drugs, and to 
investigate unlawful distribution of heroin, fentanyl, and 
opioids. The fentanyl problem, as you know, is out of control.
    The grant program authorizes States to use Federal funding 
to implement or make improvements to their Prescription Drug 
Monitoring Programs. PDMPs reduce doctor shopping, change 
prescribing behavior, and decrease the time spent on drug 
diversion investigations and they reduce prescription drug 
abuse. The effectiveness of PDMPs can be enhanced through 
interstate data sharing; however, not all States with PDMPs 
share data with other States.
    Just more than half of the States were able to share data 
with at least one other State. This funding authorized by the 
Comprehensive Opioid Abuse Grant Program will enable States to 
improve the utility of PDMPs, an issue where I have brought 
states together just bordering my district.
    States may also direct grant funding to divert veterans 
with addiction away from the criminal justice system into drug 
treatment courts. More than two million young men and women 
have served our country in Iraq and Afghanistan and other duty 
posts overseas, and many face a difficult readjustment to 
civilian life after serving overseas. According to the Rand 
Corporation, one in five veterans returning from Iraq and 
Afghanistan will experience a stress-related mental illness, 
and many others fall victim to drug and alcohol abuse.
    The symptoms and subsequent behavior associated with post-
traumatic stress, mental illness, drug abuse, and alcohol 
dependency bring many of these veterans into contact with the 
criminal justice system. Veterans account for nine out of every 
100 inmates in U.S. jails and prisons. That is a remarkable 
statistic.
    As a former district attorney and Federal prosecutor, I saw 
firsthand the struggles facing many of our veterans. Troubled 
veterans who commit small offenses deserve a chance to break 
free of the cycle of dependency and mental illness, not an 
irrevocable ticket to a jail cell and a loss of important 
veterans' benefits. That's why in 2008 a judge in Buffalo, New 
York opened the nation's first Veterans Treatment Court.
    Modeled on the successful drug court's program, Veterans 
Treatment Courts divert offenders from traditional criminal 
justice systems. Veterans Treatment Courts promote sobriety, 
recovery, and stability through a coordinated response that 
involves cooperation and collaboration with the traditional 
partners found in drug and mental health courts.
    The courts also team up with the United States Department 
of Veterans Affairs health care networks, the Veterans Benefits 
Administration, volunteer veteran mentors, and family support 
associations. They are all key to getting that veteran back on 
track.
    Access to Veterans Treatment Courts is a simple bipartisan 
way that we can support our veterans. Instead of a retributive 
instrument of justice, the Veterans Treatment Court is seen as 
a restorative instrument of justice. Veterans Treatment Courts 
have already developed a track record for low recidivism rates. 
More than 200 Veterans Treatment Courts have opened since 2008 
and more are slated.
    I commend this Subcommittee for its past support for 
Veterans Treatment Courts and I ask for continued funding.
    We all know the statistics about the epidemic's effect on 
our communities. As the Subcommittee makes decisions regarding 
our nation's spending priorities, I ask that you think about 
the individuals and families in your districts whose lives have 
been turned upside down or sacrificed as a result of addiction. 
There is still much more to be done to address the opioid 
addiction crisis, but CARA and the funding it authorizes is a 
big step forward in helping our communities cope and respond.
    I thank you for your consideration.
    [The information follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
  
    Mr. Culberson. Thank you very much, Mr. Meehan.
    It is a wonderful program. The Veterans Treatment Courts 
have had a great success record, and I deeply appreciate you 
coming in to remind us of that fact and to keep it in the 
forefront of our mind. I look forward to working with you on 
this.
    Mr. Meehan. I thank you, Congressman. And I note for the 
record that it was in this room and with your Committee that 
the first real commitment to them has been made and they have 
made a huge difference in the lives of our veterans, and I 
thank you for that leadership.
    Mr. Culberson. Thank you.
    Mr. Serrano.
    Mr. Serrano. Yes. I want to thank you for your testimony. 
This is an issue that has taken on some life, if I may use that 
expression. Before, our Congress was not paying attention to 
it, neither were the American people, in all honesty. It was 
happening and unless you were affected, it wasn't happening.
    This epidemic that is running throughout this country is 
being confronted, and people are aware. And I think when 
Americans become aware and its representatives become aware, 
things begin to happen, and that is what I am hopeful of and I 
think is going to happen.
    I thank you.
    Mr. Meehan. Well, I thank you, I thank you for your 
attention to it and the appreciation.
    I remember running for office and seeing a young man across 
the street on the corner with a bottle in a bag at 9:00 a.m. 
And I asked about him and they said he was there every day. And 
I made a commitment that if I ever got here I was never going 
to forget that young man. And with the old military, we never 
leave our war fighters behind on the battlefield and this is a 
battlefield that too many are facing.
    And I thank you for your leadership in helping us pay 
attention to that and to put them into a system that allows 
them to get the support to help them see it through.
    Mr. Culberson. Thank you. That's a great story. Thank you.
    Mr. Meehan. Thank you, Congressman. Thank you for the 
chance.
    Mr. Culberson. All of the Members who were coming to 
testify personally have done so. We have a number of statements 
for the record and without objection we will have those entered 
into the record in their entirety.
    [The information follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Culberson. So the Subcommittee hearing is adjourned. 
Thank you very much.


                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
